                      CLOSEOUT FOR M94030007

                                         1994, when we received a




various departmental brochures and in grant proposals to other
agencies. She also complained that the subject treated graduate
students irresponsibly and had misrepresented himself as an
assistant professor when he was in fact an instructor.
     OIG examined the subject's two declined NSF proposals and the
award iacket for the subiect's only NSF srant.       The declined




     Although these proposals indicated that the subject possessed
a M.S. degree and was anticipating receipt of his Ph.D. and
promotion to assistant professor within four months of the proposal
submission date, OIG learned that the subject had in fact received
neither an M.S. nor a Ph.D. as of the date of the allegation. The
proposals represented the subject's faculty rank accurately.
     OIG wrote to the subject to ask for his explanation. The
subject informed us that he believed in good faith that the
representations concerning his M.S. degree had been correct when he
made them. At that point, he had successfully defended his M.S.
thesis, submitted a report to complete an unfinished course
requirement, been told by a member of his thesis committee that all
necessary materials were in hand, and begun receiving requests for
alumni contributions.    Only after he had submitted the three
                           page 1 of 2                      M94 - 07
                      CLOSEOUT FOR M94030007
proposals did he learn that an administrative error had prevented
the final conferral of the degree. The subject also noted that,
after this situation came to light, he had been awarded the degree
without having to perform any additional work.           The subject
informed OIG that his current institution had examined this matter
and had solicited a written account of the circumstances
surrounding the awarding of the subject's degree from a member of
the subjectrs thesis committee.        OIG contacted the subject's
current institution, which supplied a copy of this account. OIG
also spoke to the chair of the department in which the subject
studied for his M . S . Both the thesis committee member's letter and
the department chair's statement confirmed the subject's account.
OIG concluded that, while the subject might have been careless in
failing to verify that the degree had been conferred, his
carelessness could not be considered so gross as to be misconduct.
     With regard to the subject's representation that he was
imminently about to receive a Ph.D., the subject explained that he
had completed all the course work required for his degree and had
been formally advanced to candidacy for the Ph.D. in August, 1987,
well before he submitted his N S F proposals. Thus he needed only to
complete and defend his dissertation to receive his Ph.D. degree.
OIG re,c,eivedan official transcript from the subject's Ph.D.
institution confirming these claims. OIG concluded that, even if
the subject made optimistic projections of his Ph.D date, his
projections had enough basis in fact that they could not be
considered misrepresentations. OIG concluded that the allegation
that the subject's projections were misconduct lacked substance.
     OIG determined that in this case the subject s representations
to the general public or other funding agencies and his performance
as teacher or adviser, because they did not involve his N S F
proposals or awards, were outside our jurisdiction.
     The allegations of misconduct in this case either lack
substance or do not involve N S F . This inquiry is closed and no
further action will be taken on this case.




                            page 2 of 2
